HUMAN CAPITAL MANAGEMENT:
Controls Over the Use of Temporary Management Assignments
Need Improvement




                           Report No. OIG-E-2012-009 | March 28, 2012




                          DRAFT
  "'~AMTRAK
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                        Office of Inspector General


Memorandum
To:           Gordon L. Hutchinson, Acting Chief Financial Officer
              Barry Melnkovic, Chief Human Capital Officer ~

From:         Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Date:         March 28, 2012

Subject:      Human Capital Management: Controls Over the Use of Temporary Management
              Assignments Need Improvement (Report No. OIG-E-2012-009)

Amtrak employs about 3,100 management and 17,900 union workers, and often uses
union employees to temporarily fill management positions. Since August 2001, 1,476
Amtrak union employees have temporarily filled these positions. 1 Amtrak's use of
union workers to fill temporary management positions is important because it allows
the company to fill critical management vacancies in a timely way, and provides
opportunities for union workers to develop their management and leadership skills,
which could help move them into permanent management positions. To the extent that
Amtrak does not properly manage the process to fill these positions, it risks not having
appropriate management oversight of its activities, inefficiencies in operations, and
missed opportunities to develop future managers and leaders.

We initiated this evaluation after receiving a complaint from a union employee who
had worked in a temporary management position. The employee alleged that he should
have received back pay-as did some other union employees who worked in temporary
management positions-in response to labor agreements resolving Amtrak's 7-year




I Amtrak's Temporary Management Assignment (TMA) policy describes the processes and procedures

for managing union employees in these positions.
                                                                                                      2
                             Amtrak Office of Inspector General
                   Human Capital Management: Controls Over the Use of
                  Temporary Management Assignments Need Improvement
                        Report No. OIG-E-2012-009, March 28, 2012


labor dispute with its 13 unions. These agreements were signed between January and
May 2008.2 As part of the settlement, Amtrak agreed to pay its union employees
retroactive wage increases (back pay) for the period July 1, 2002 through March 31,
2008, totaling about $262 million. However, Amtrak decided that union employees in
temporary management assignments (TMA) were not entitled to the back wages
because they were paid a premium to take the management assignments. In spite of this
decision, some temporary management employees were still paid back wages because
they were not properly recorded in Amtrak’s payroll system3 as being on temporary
management assignments. The complaining worker cited these inconsistencies in the
retroactive wage increases.

Our report discusses whether Amtrak (1) consistently managed employees in
temporary management positions during the labor negotiation period, (2) appropriately
managed TMA labor rates after negotiations concluded, and (3) is properly managing
TMA employees today. We focused on employees in Amtrak’s Transportation
Department, which comprises about 9,000 (43 percent) of Amtrak’s management and
union employees. For a detailed discussion of our evaluation methodology, see
Appendix I. We performed this evaluation in accordance with our statutory
responsibilities contained in the Inspector General Act of 1978, as amended.



SUMMARY OF RESULTS
Amtrak inconsistently managed Transportation employees in temporary management
positions between August 2001 and May 2008. Weak controls over implementation of
the TMA policy enabled some field managers to circumvent the policy, which led to 177
employees exceeding the 180-day limit on temporary management assignments and the
improper coding of 57 employees in the payroll system. This had financial
consequences for Amtrak, with these 57 employees potentially being paid for some
hours they may not have worked. Further, 47 of these employees likely received some


2 To resolve Amtrak’s dispute with its unions, the President of the United States appointed an emergency
board under Section 10 of the Railway Labor Act of 1926, as amended (45 U.S.C. sections 151 and 160) to
mediate and recommend solutions to the dispute. For a chronology of Amtrak’s recent labor negotiations,
see Appendix II.
3 The payroll system is part of Amtrak’s enterprise resource management system. The Human Capital

Management module in the system handles both payroll and human resources transactions.
                                                                                                    3
                             Amtrak Office of Inspector General
                   Human Capital Management: Controls Over the Use of
                  Temporary Management Assignments Need Improvement
                        Report No. OIG-E-2012-009, March 28, 2012

additional back pay for this period, although they were ineligible to receive it because
they were working in temporary management positions. According to officials from the
Finance Department, determining the exact amount of funds improperly paid to these
employees would require a significant investment of time and resources. Our analysis
of the pay data for these employees also indicates that it would be challenging to
identify the amount of improper back pay paid to these employees in order to
potentially recover the funds.

Amtrak also did not adjust the rates of pay for employees who were properly recorded
in TMA positions after the labor negotiations concluded in 2008. Because the 2001 TMA
pay rates were not updated until July 1, 2009, retroactive union wages exceeded the rate
of pay for TMA positions beginning July 1, 2005. Consequently, during this period,
employees in temporary management positions received less pay than they would have
received if they had remained in their union positions. Amtrak decided to adjust the
pay of the employee who complained about this, but has yet to conduct a
comprehensive review of other employees who may have been financially penalized
because their time was properly coded in TMA positions. If Amtrak does not take
action, employees who worked in temporary management positions and were properly
coded in the payroll system may receive less compensation than they would have
received while either working in—or coded as working in—union positions in this
period, contrary to the intent of the TMA policy.

Transportation’s management of employees in temporary management positions has
improved since 2007, but several problems persist. Transportation initiated several
controls to ensure that employees are properly promoted to TMA positions, to limit the
improper use of certain job codes, and to ensure that employees do not exceed the 180-
day limit for these assignments. However, some employees’ assignments continue to
exceed 180 days, in part because Transportation and Human Resources (HR)4 do not
reconcile data on employees in TMA assignments. Additionally, some TMA employees
are still not properly coded in the payroll system. Therefore, by tightening controls over
TMA employees, Transportation could improve its compliance with the policy, provide
temporary management experience to more employees, and improve overall workforce
planning. Finally, because of these weaknesses and because HR did not update the
TMA rates of pay in 2011, Amtrak may face additional financial consequences involving


4The official name of this office is now the Office of Human Resources, Labor Administration, and
Diversity Initiatives, which is led by Amtrak’s Chief Human Capital Officer.
                                                                                       4
                          Amtrak Office of Inspector General
                Human Capital Management: Controls Over the Use of
               Temporary Management Assignments Need Improvement
                     Report No. OIG-E-2012-009, March 28, 2012

back pay and further pay inequity among some employees when the current round of
labor negotiations that began in 2010 concludes.

To address the pay issues stemming from weaknesses in the management of TMA
employees and avoid these problems in the future, we recommend that Amtrak
determine whether it is cost effective to recover compensation paid to employees who
were ineligible to receive back pay, address pay inequities that occurred from
employees working in TMA positions, and take action to strengthen controls over the
use of TMA positions to prevent these problems from occurring in the future.

In commenting on a draft of this report, management generally agreed with our
recommendations, and is taking action to strengthen controls over TMA employees
going forward. However, management determined that it would not take action to
recover compensation or address past pay inequities for some employees who worked
in TMA positions. Management’s actions are responsive to our recommendations.




MANAGEMENT OF TMA EMPLOYEES DURING LABOR
NEGOTIATIONS WAS INCONSISTENT
Some Transportation field managers did not follow the TMA policy when filling
temporary management positions between August 2001 and May 2008. Amtrak’s TMA
policy was issued in August 2001 by the then-Vice President of Human Resources and
described how to manage union employees applying for and working in temporary
management assignments. For example, assignments could not last more than 180 days,
with some exceptions, and union employees could only be promoted after they applied
for a position and the application was reviewed by HR and coordinated with each
department, in accordance with Amtrak’s employment policies. The policy also
required identification of these employees in Amtrak’s payroll system, using special job
codes to ensure that they received the additional pay for these assignments. According
to HR officials, the policy was reissued in October 2004 with the same guidelines, in
order to emphasize the importance of properly managing TMA employees. However,
this did not deter some field managers from circumventing the policy and allowing
employees to work in temporary management positions irrespective of the TMA policy
guidelines. This occurred in several areas, for example:
                                                                                       5
                          Amtrak Office of Inspector General
                Human Capital Management: Controls Over the Use of
               Temporary Management Assignments Need Improvement
                     Report No. OIG-E-2012-009, March 28, 2012

   Many assignments lasted more than 180 days. We analyzed data compiled by
   Transportation for FY 2001 through FY 2008 and determined that 177 employees
   across the department had assignments that lasted more than the allowed 6 months,
   with 28 of these employees working in assignments lasting more than 1 year.

   Some employees were not properly identified in the payroll system. We analyzed
   data compiled by Transportation and Finance and found that 57 Transportation
   train and engine (T&E) employees working in temporary management positions
   were not identified in the payroll system using the special TMA pay codes in order
   to be paid an appropriate TMA daily rate. Instead, some Transportation field
   managers circumvented TMA procedures by using pay schemes to either pay
   employees extra hours or use pay adjustments under certain payroll labor codes that
   enabled field managers to pay employees without using an appropriate TMA daily
   rate.

According to Finance officials, it would be difficult and time-consuming to determine
precisely whether employees were paid for hours they did not work because only the
employees’ supervisors could certify that the hours recorded were valid. Due to the
time that has elapsed since these hours were recorded and the employee turnover that
has occurred, we did not attempt to determine whether the employees worked these
hours. Nonetheless, we reviewed data compiled from Finance and determined that
4,187 days were charged to the “conference” labor code, totaling about $1 million in pay
for these 57 T&E employees between July 1, 2002 and December 1, 2007. Ten employees
in this group accounted for over 2,375 days of pay under this code, which appears to be
excessive. According to Finance officials, the conference code should only be used to
record time for employees spent in conference with managers for training or business
purposes.

Further, Amtrak management did not implement controls to ensure that employees
were properly promoted into TMA positions. The TMA policy required HR to
distribute a monthly report of employees temporarily promoted to management
positions to the Division General Superintendent or Department Assistant Vice
President. This report has been automatically generated and issued monthly since 2001,
but HR has not required Transportation’s senior managers to reconcile the monthly
report with their field managers and provide feedback on the actual numbers of
employees working in temporary management positions. According to Finance
officials, the 57 T&E employees who were not properly identified in the payroll system
                                                                                                           6
                             Amtrak Office of Inspector General
                   Human Capital Management: Controls Over the Use of
                  Temporary Management Assignments Need Improvement
                        Report No. OIG-E-2012-009, March 28, 2012

using the proper TMA pay codes would have been identified had better controls been
in place.

Moreover, some employees may have improperly received back pay. We found that 47
of the 575 T&E employees received some back pay for the time they worked in
temporary management positions although they were ineligible to receive back pay
when working in these positions. According to Finance officials, this likely occurred
because these employees were not properly coded in the payroll system and appeared
as if they were working in union rather than management positions. These funds were
paid in two installments, with the first one of $342,895 paid in May 2008. We briefed
responsible senior Amtrak officials in February 2009 that these employees may have
been ineligible to receive some of the back pay. Although we were told that
management would address this issue, no changes were made and a second installment
of $515,448 was paid in May 2009 (for a total of $858,343). Had Amtrak management
responded more quickly to the facts presented, the May 2009 payment could have been
reviewed, and at least some of the additional payments could have been prevented if
they were improper.

Determining what portion of the $858,343 in back pay was improper is difficult. Finance
advised us that it would be necessary to review each day that the employees worked in
temporary management positions and the hours billed to various labor codes in order
to estimate how much of the back pay was proper. However, as discussed, confirming
these hours with employees and their supervisors would be very difficult. Finance
officials estimated that a significant amount of resources would need to be invested to
conduct this analysis, and that doing so could potentially outweigh the benefits of
identifying the amount and recovering the funds. Our analysis of the payroll data for
these employees supports Finance’s statements regarding the level of effort needed to
determine the scope and amount of improper back pay.




5Ten of the 57 employees left Amtrak prior to December 1, 2007, and were therefore ineligible to receive
back pay provided to union employees.
                                                                                                         7
                             Amtrak Office of Inspector General
                   Human Capital Management: Controls Over the Use of
                  Temporary Management Assignments Need Improvement
                        Report No. OIG-E-2012-009, March 28, 2012

TMA LABOR RATES WERE NOT REVISED AFTER LABOR
NEGOTIATIONS WERE CONCLUDED
The labor rates for TMA positions were not revised until about a year after labor
negotiations were concluded in 2008. The TMA policy established a daily rate of pay in
2001 for each temporary management position. According to HR officials, they
attempted to peg the TMA daily rate at about 7–10 percent higher than the employee’s
current daily rate (depending on the position). These rates were not adjusted during the
labor negotiation period, and pay for TMA positions remained at 2001 rates until
Amtrak issued a revised TMA policy in July 2009, about a year after Amtrak reached
agreement with its unions.

Amtrak has not yet comprehensively addressed this issue. In responding to the
employee complaint discussed above, officials from HR, Labor Relations, and
Transportation met on April 15, 2008, and agreed to adjust the employee’s pay. It was
management’s intention to pay this employee the difference in the rate of pay between
what he received when assigned to a temporary management position and his regular
union position rate of pay after the retroactive wage increase.6 These officials also
acknowledged at that time that other employees may be entitled to retroactive pay
adjustments but, according to the then-Assistant Vice President of HR, did not initiate a
review of other employees’ records to determine whether they deserved similar pay
adjustments.

According to our analysis of records of the other employees who were properly coded
in the payroll system, these employees may have received less money while working in
these positions than they would have received had they remained in union positions
during this period. We compared the union rates of pay for engineer and conductor
positions in Transportation to the TMA rates of pay for the management positions that
engineers and conductors are generally upgraded to: road foreman and trainmaster,
respectively. As shown in Table 1, the retroactive wage increases for union employees
in the engineer and conductor positions began to outpace—retroactively—the rates of
pay for TMA employees on July 1, 2005, which continued until those rates were revised
on July 1, 2009. We brought this issue to the attention of HR several times during the
course of our evaluation, but HR has not yet taken action to identify other employees
who may meet similar criteria for a pay adjustment.

6According to HR officials, the employee rejected the pay adjustment, in part because he believed that
HR incorrectly calculated the adjustment and he would have been paid less than he should have been.
                                                                                                     8
                             Amtrak Office of Inspector General
                   Human Capital Management: Controls Over the Use of
                  Temporary Management Assignments Need Improvement
                        Report No. OIG-E-2012-009, March 28, 2012

    Table 1. Comparison of Retroactive Pay Rates to TMA Pay Rates for
       Engineer and Conductor Union and Management Positionsa
                                       Retroactive
                Union                Hourly Rate of     Management               TMA Hourly Rate
Date            Position                       Pay      Position                          of Pay
                Engineer                    $28.56      Road Foreman                      $30.63
7/1/2002
                Conductor                   $23.98      Trainmaster                       $25.63
                Engineer                    $29.42      Road Foreman                      $30.63
7/1/2003
                Conductor                   $24.70      Trainmaster                       $25.63
                Engineer                    $30.38      Road Foreman                      $30.63
7/1/2004
                Conductor                   $25.50      Trainmaster                       $25.63
                Engineer                    $31.14      Road Foreman                      $30.63
7/1/2005
                Conductor                   $26.14      Trainmaster                       $25.63
                Engineer                    $32.07      Road Foreman                      $30.63
7/1/2006
                Conductor                   $26.92      Trainmaster                       $25.63
                Engineer                    $33.03      Road Foreman                      $30.63
7/1/2007
                Conductor                   $27.73      Trainmaster                       $25.63
                Engineer                    $34.35      Road Foreman                      $30.63
7/1/2008
                Conductor                   $28.84      Trainmaster                       $25.63
a
The bold text for 2005 denotes when union positions’ pay rates began to exceed TMA pay rates.

Source: OIG analysis of TMA pay rates from 2001 through 2008, and retroactive wage settlements for
2002 through 2008




MANAGEMENT OF TMA EMPLOYEES HAS IMPROVED, BUT
PROBLEMS PERSIST
Transportation’s administration of TMA employees improved during the course of this
review, but some weaknesses continue. Transportation has centralized management
over TMA employees, including processes to promote union employees into temporary
management positions and limit the duration of these positions. Nonetheless, our
analysis shows that some union employees still remain in these positions longer than
180 days, and are still not properly coded in the payroll system. Poor controls over
TMA employees continue to limit Transportation’s ability to provide temporary
management experience to a range of employees and properly evaluate its personnel
needs. Further, more timely revisions of the TMA pay rates should avoid pay inequities
between employees in TMA positions and their union counterparts.
                                                                                          9
                          Amtrak Office of Inspector General
                Human Capital Management: Controls Over the Use of
               Temporary Management Assignments Need Improvement
                     Report No. OIG-E-2012-009, March 28, 2012

Transportation Has Tightened Some Controls over TMA Employees
Transportation has made some improvements to tighten controls over TMA employees.
Some of the steps Transportation took to improve management of union employees
assigned to temporary management positions are designed to address the problems we
have highlighted. For example, Transportation officials stated that they have taken the
following actions:

   Instituted processes (in September 2007) that centralized TMA promotions to help
   ensure that each applicant and assignment is reviewed and approved by the
   appropriate level of management. T&E field managers must complete a request
   form to authorize and promote union employees to TMA positions. Similarly, field
   managers of on-board services (OBS) employees (such as train conductors) must
   request the creation of a TMA position from the OBS desk at the operations center.
   The desk official then creates the position and assigns the employees to the
   appropriate job code in the payroll system, rather than this being done by the field
   manager.

   Initiated a monthly report (in February 2009) on the use of the conference labor code
   immediately after we discussed the apparent improper use of this code with them.
   Transportation officials review a monthly report of all days paid under this code to
   ensure that the time is authorized, legitimate, and follows payroll labor code
   guidelines. We reviewed these reports and our initial analysis shows that the use of
   the conference code is being reviewed and reconciled monthly by senior
   Transportation managers, thereby limiting potential misuse.

   Initiated two monthly reports (beginning in July 2011), after discussions with us,
   that list T&E and OBS employees working in TMA positions. These reports are now
   reviewed by senior Transportation managers to ensure that TMA assignments are
   properly authorized and do not exceed 180 days without managerial approval.



Some Weaknesses in the Implementation of TMA Policy Continue
Some problems persist despite these controls. For instance, some TMA employees
continue to remain in their assignments for more than 180 days. We reviewed the T&E
reports generated from the payroll system for FY 2011 and found that 29 out of 76
employees’ assignments (38 percent) exceeded this limit, although most of these
                                                                                     10
                          Amtrak Office of Inspector General
                Human Capital Management: Controls Over the Use of
               Temporary Management Assignments Need Improvement
                     Report No. OIG-E-2012-009, March 28, 2012

assignments started before Transportation implemented its controls. We believe that
these employees were able to exceed 180 days in their TMA positions in part because
HR did not require Transportation managers to review and reconcile their monthly
TMA reports with the official HR TMA report. We discussed this further with
Transportation in October 2011; they implemented a control in the payroll system the
following month to prevent employees from continuing in a TMA position beyond 180
days without appropriate approval.

Further, field managers may not be properly identifying TMA employees in the payroll
system using the appropriate job codes. We reviewed Transportation’s October 2011
TMA reports, which listed 27 T&E and 53 OBS employees working in TMA positions.
However, the official report used by HR to track TMA employees listed different
totals—37 and 46 employees, respectively. We could not readily determine from the
information available which report, or combination of reports, contained accurate
information because the systems used to generate the reports are not integrated and HR
and Transportation managers do not reconcile the reports. These discrepancies suggest
that the company has not yet taken a centralized approach to tracking the proper use
and coding of TMA employees in the payroll system. This could lead to some
employees again improperly receiving retroactive pay for union positions when their
unions ratify current labor agreements.



Poor Controls Limit Employees’ Management Opportunities and
Transportation’s Workforce Planning
Transportation could further tighten its controls over the use of TMA positions and
limit their duration if Transportation followed the TMA policy more closely. For
example, the policy states that qualified candidates who applied and interviewed for
TMA positions but were not selected should be placed on a list and rotated into those
positions, rather than the same employee remaining in a lengthy assignment. However,
Transportation is not creating qualified candidate lists to fill TMA positions, thereby
limiting the number of employees who receive management experience through these
temporary positions.
                                                                                                 11
                            Amtrak Office of Inspector General
                  Human Capital Management: Controls Over the Use of
                 Temporary Management Assignments Need Improvement
                       Report No. OIG-E-2012-009, March 28, 2012

Additionally, better controls over the use of TMA employees could also lead to
improvements in workforce planning.7 The TMA policy states that management
positions expected to be vacant more than 180 days are subject to Amtrak’s normal
posting requirements for permanent positions. However, according to Transportation
officials, due to Amtrak’s current management hiring freeze, the use of TMA positions
has increased and these assignments have been extended beyond 180 days because it is
easier to establish a TMA position than to attempt to justify a permanent management
position and follow the hiring plans that Transportation has developed.8 While some
TMA positions exist to meet the company’s immediate business needs, our analysis
indicated that most of the positions that exist beyond 180 days are being used in lieu of
creating a permanent management position. Thus temporary management assignments
are being regularly used to augment management staff rather than addressing these
management shortages through proper workforce planning.



TMA Rates of Pay Were Not Updated in 2011
HR has not taken steps to ensure that TMA rates keep pace with union salaries.
Although HR reissued the TMA policy in 2009 and 2010 with updated rates of pay, it
did not do so in 2011. Amtrak is again in a period of labor uncertainty, with three of 13
unions not yet having ratified new labor agreements covering the period July 1, 2010
through December 31, 2014. The ten agreements include back pay for union employees
retroactive to July 1, 2010, upon ratification. A union representing some T&E employees
(such as conductors) has yet to ratify the new labor agreements, and union rates of pay
may again outpace TMA rates if the rates are not revised annually. This could again put
Amtrak in a situation in which it may underpay employees who work in temporary
management assignments.




7 We previously reported on Amtrak’s workforce planning deficiencies. In a response to the report,
Amtrak’s Chief Human Capital Officer committed to improving workforce planning. See Human Capital
Management: Lack of Priority Has Slowed OIG-Recommended Actions to Improve Human Capital Management,
Training, and Employee Development Practices, Amtrak OIG-E-11-04, July 8, 2011.
8 We previously reported, in 2009, that Transportation and HR developed plans to project and guide

hiring decisions for management positions. See Human Capital Management, Amtrak OIG E-09-03, May 15,
2009.
                                                                                     12
                          Amtrak Office of Inspector General
                Human Capital Management: Controls Over the Use of
               Temporary Management Assignments Need Improvement
                     Report No. OIG-E-2012-009, March 28, 2012

CONCLUSIONS
Weak controls over the implementation of the TMA policy, coupled with inconsistent
practices for paying back wages, may have serious financial consequences for Amtrak.
Due to weak controls that allowed abusive and inconsistent management practices in
the past, Amtrak now faces a challenging issue: determining whether it should invest
the time and resources necessary to (1) recover back pay improperly paid to some
employees and (2) provide additional pay to other employees who were properly coded
in temporary management positions between July 2002 and June 2009, which would be
necessary to comply with the intent of the TMA policy—to pay a premium rate to TMA
employees. As some of these weaknesses continue today, Amtrak’s ability to properly
manage its workforce is limited. Moreover, if these weaknesses are not addressed,
Amtrak may face additional financial consequences and pay inequity among employees
in the future when the current round of labor negotiations concludes.




RECOMMENDATIONS
To address the pay issues stemming from weaknesses in the management of TMA
employees and avoid these problems in the future, we recommend that the

1. Chief Financial Officer determine whether his office should attempt to recover
   improper payments made to employees who were ineligible to receive back pay
   from July 1, 2002 through March 31, 2008.

2. Chief Financial Officer and Chief Human Capital Officer determine whether
   employees who were properly coded in temporary management positions between
   July 1, 2002 and June 30, 2009 should receive retroactive pay adjustments to address
   any pay inequities that resulted from HR’s not adjusting TMA rates during this
   period.

3. Chief Human Capital Officer strengthen the management of TMA employees by
   instituting a process for reconciling monthly reports of the number of TMA
   employees.

4. Chief Human Capital Officer improve workforce planning policies and procedures
   to prevent managers from using TMA positions to inappropriately augment
   management staff.
                                                                                       13
                          Amtrak Office of Inspector General
                Human Capital Management: Controls Over the Use of
               Temporary Management Assignments Need Improvement
                     Report No. OIG-E-2012-009, March 28, 2012

5. Chief Human Capital Officer institute a process to review the TMA policy annually
   and update the TMA rates of pay, as appropriate, to reflect increases in union rates
   of pay.




MANAGEMENT COMMENT AND OIG ANALYSIS
In commenting on a draft of this report, management generally agreed with our
recommendations, but determined that they would not attempt to recover improper
payments made to employees who were not eligible to receive back pay because
management believes that the costs to do so would outweigh the benefits of recovering
the funds (recommendation 1). Management also determined that it would not perform
an analysis to decide whether retroactive pay adjustments are warranted for employees
who spent time working in properly coded TMA positions (recommendation 2).
Further, management committed to improving their controls over current TMA
employees (recommendations 3, 4, and 5) and provided us with their plans and time
frames. We view these actions as responsive to our recommendations.

Amtrak management’s letter commenting on the draft report is reprinted as Appendix
III.

                                          ---

Thank you for your cooperation during the course of this evaluation. If you have any
questions, please contact me (calvin.evans@amtrakoig.gov, 202.906.4507) or Jason
Venner, Senior Director, Inspections and Evaluations (jason.venner@amtrakoig.gov,
202.906.4405).



cc:   Joseph H. Boardman, President & CEO
      Donald A. Stadtler, Jr., Acting Vice President, Operations
      Eleanor D. Acheson, Vice President, General Counsel and Corporate Secretary
      Jessica Scritchfield, Senior Director, Internal Controls/Audit
                                                                                          14
                           Amtrak Office of Inspector General
                 Human Capital Management: Controls Over the Use of
                Temporary Management Assignments Need Improvement
                      Report No. OIG-E-2012-009, March 28, 2012

                                       Appendix I

                       SCOPE AND METHODOLOGY
This report provides the results of our evaluation of Amtrak’s policies and procedures
when assigning union employees to temporarily fill management positions. Based on
an Amtrak Transportation Department employee’s complaint in November 2008, we
initially focused on employees in Transportation who worked in temporary
management positions during the labor negotiation period between August 1, 2001, and
May 30, 2008. Based on our preliminary findings, we expanded the scope of our
evaluation to also assess the management of employees currently working in temporary
management positions in Transportation. Therefore, this report discusses whether
Amtrak (1) consistently managed employees in temporary management positions
during the labor negotiation period, (2) appropriately managed TMA labor rates after
negotiations concluded, and (3) is properly managing TMA employees today. We
performed our work from November 2008 through November 2011.

To address our objectives, we obtained and reviewed several versions of the TMA
Policy (P/I 7.31.0) issued in 2001, 2004, and 2010, to understand how the policy was
intended to be administered and to identify TMA rates of pay. We also obtained a series
of reports from Transportation, HR, Information Technology, and Finance that
identified employees temporarily promoted to management positions and the labor
codes that were used to pay them. We identified the length of time these employees
remained in these positions, the types of labor codes used to identify them in payroll
and management systems, and compared these reports to determine whether
management of these employees improved over time. In addition, we interviewed staff
from these departments to understand their roles and responsibilities in managing
union employees assigned to temporary management positions, and reviewed data and
documents we received from them.

Our work was performed in accordance with government Quality Standards for
Inspection and Evaluation and our statutory responsibilities contained in the Inspector
General Act of 1978, as amended.
                                                                                                   15
                             Amtrak Office of Inspector General
                   Human Capital Management: Controls Over the Use of
                  Temporary Management Assignments Need Improvement
                        Report No. OIG-E-2012-009, March 28, 2012

                                            Appendix II

     SUMMARY OF RECENT LABOR NEGOTIATIONS THAT
              AFFECT TMA EMPLOYEES
Table 2 lists the chronology of recent labor negotiations. These negotiations are
governed by Section 10 of the Railway Labor Act of 1926, as amended

             Table 2. Chronology of Amtrak’s Labor Negotiations
                          FY 2000 through FY 2015

Date or Period            Event
December 31, 1999         Amtrak’s agreements with its 13 unions expire
January 1, 2000           Amtrak begins negotiations and eventually enters into mediation with
                          nine of its unions
October 25, 2007          Amtrak and unions reject arbitration offered by National Mediation
                          Board (NMB)a
October 31, 2007          NMB releases nine non-operating unions from mediation
November 30, 2007         NMB recommends that the President of the United States create a
                          Presidential Emergency Board (PEB) to avoid a labor strike
December 1, 2007          The President establishes PEB 242 to mediate the dispute and issue
                          recommendations for a proposed settlement
December 30, 2007         PEB 242 issues a report to the President, which includes
                          recommendations for the parties to reach an agreement
January through May       Amtrak and its 13 unions settle labor disputes with agreements
2008                      including $262 million in retroactive wages to union employees
May 9 and 30, 2008        Amtrak pays eligible union employees 40% of the retroactive wage
                          payments
May 1, 2009               Amtrak pays eligible union employees the remaining 60% of the
                          retroactive wage payments
December 31, 2009         Amtrak’s agreements with its unions expire
January 1, 2010           Amtrak enters into agreements with 10 unions that include wage
through December 15,      increases of 14.9% over 5 years (four unions have not yet ratified the
2011                      agreements)
July 1, 2010              Amtrak begins paying the union wage increases
January 1, 2015           Current labor agreements expire
a
The National Mediation Board is an independent federal agency that administers the Railway Labor Act.
Source: OIG analysis of Amtrak’s recent labor negotiations as of December 15, 2011.
                                                              16
                   Amtrak Office of Inspector General
         Human Capital Management: Controls Over the Use of
        Temporary Management Assignments Need Improvement
              Report No. OIG-E-2012-009, March 28, 2012

                           Appendix III

COMMENTS FROM THE ACTING CHIEF FINANCIAL OFFICER
     AND THE CHIEF HUMAN CAPITAL OFFICER
                                                      17
           Amtrak Office of Inspector General
 Human Capital Management: Controls Over the Use of
Temporary Management Assignments Need Improvement
      Report No. OIG-E-2012-009, March 28, 2012
                                                              18
                   Amtrak Office of Inspector General
         Human Capital Management: Controls Over the Use of
        Temporary Management Assignments Need Improvement
              Report No. OIG-E-2012-009, March 28, 2012

                              Appendix IV

                          ABBREVIATIONS

HR    Human Resources
NMB   National Mediation Board
OBS   on-board services
OIG   Office of Inspector General
PEB   President’s Emergency Board
T&E   train and engine
TMA   temporary management assignment
                                                                         19
                          Amtrak Office of Inspector General
                Human Capital Management: Controls Over the Use of
               Temporary Management Assignments Need Improvement
                     Report No. OIG-E-2012-009, March 28, 2012

                                     Appendix V

                            OIG TEAM MEMBERS

Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Jason Venner, Senior Director, Inspections and Evaluations

Ed Vogel, Jr., Senior Operations Analyst
                                                                                       20
                         Amtrak Office of Inspector General
               Human Capital Management: Controls Over the Use of
              Temporary Management Assignments Need Improvement
                    Report No. OIG-E-2012-009, March 28, 2012

           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         Amtrak OIG’s mission is to
                                conduct and supervise independent and objective
                                audits, inspections, evaluations, and investigations
                                relating to Amtrak programs and operations;
                                promote economy, effectiveness, and efficiency within
                                Amtrak;
                                prevent and detect fraud, waste, and abuse in Amtrak's
                                programs and operations;
                                review security and safety policies and programs; and
                                review and make recommendations regarding existing
                                and proposed legislation and regulations relating to
                                Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Congressional and            E. Bret Coulson, Senior Director
Public Affairs               Congressional and Public Affairs
                             Mail:     Amtrak OIG
                                       10 G Street, N.E., 3W-300
                                       Washington, DC 20002
                             Phone:    202-906-4134
                             Email:    bret.coulson@amtrakoig.gov
